SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
+1 312 853 7000
+1 312 853 7036 FAX
CTRELA@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

+1 312 853 7293

February 24, 2021
VIA ELECTRONIC FILING
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Sandoz Inc., et al. v. Immunex Corporation, et al. (No. 20-1110)

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on
January 29, 2021 and placed on the docket on February 12, 2021. The response is
currently due on March 15, 2021.
Under Rule 30.4 of the Rules of this Court, Respondents Immunex Corp. and
Amgen Manufacturing, Ltd. respectfully request a 30-day extension of time, to and
including April 14, 2021, within which to file their response.
The undersigned has a variety of obligations before various courts that would
make it difficult to complete the response by the current deadline. These matters
include preparing a reply brief due February 24, 2021 concerning punitive damages
after remand from the Seventh Circuit in Epic Systems Corp. v. Tata Consultancy
Services, et al., No. 14-CV-748 (W.D. Wis.) and an April 2, 2021 oral argument in
Continental Casualty Co., et al. v. Certain Underwriters at Lloyds of London, No. 202892 (7th Cir.). Additionally, I was traveling and away from home from February
12 to February 16, 2021.
Accordingly, Respondents respectfully request a 30-day extension of time.
Respectfully submitted,
/s/ Constantine L. Trela, Jr.
Constantine L. Trela, Jr.
Counsel for Respondents
CC: William McGinley Jay (via e-mail)
Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

